                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: 112100071                                                                    Page 1 of 1



        This case was opened on a company 1 from a proactive review of SBIR awards. In this case,
        contradictions were found in the proposal concerning the PI's primary place of employment with
        the company versus a website listing the PI's apparent employment with another entity? In
        addition, there was no confirmation that the company had adequate facilities to carry out the
        research. However, the· other entity verified that it did not employ the PI during the award, and
        the company provided a copy of a lease for facilities which were adequate to conduct the
        research. As a result, this case is closed.




         2




NSF 010 Form 2 (11/02)
